PROTECTIVE FORCE OVERTIME PAY AT LAWRENCE
LIVERMORE NATIONAL LABORATORY




               U.S. Department of Energy
               Office of Inspector General
               Office of Inspections and Special Inquiries




   Inspection Report


   Protective Force Overtime Pay at
   Lawrence Livermore National
   Laboratory




 INS-O-07-03                                  July 2007
                          Department of Energy
                              Washington, DC 20585

                                J u l y 2 3 , 2007

MEMORANDUM FOR: ACTING ADMINISTRATOR, NATIONAL NUCLEAR
                                                                                    I
                SECURITY ADMINISTRATTON        >
                                                                                ,
FROM:                     Chr~stopherR. Sharpley
                                                          /     /'
                                                                 *,,   4   ,A
                                                                                        --4



                          Deputy Inspector General for Investigatiofis and Inspections

SUBJECT:                  INFORMATION: Inspection Report on "Protective Force
                          Overtime Pay at Lawrence Livermore National Laboratory"

BACKGROUND

The Lawrence Livermore National Laboratory (LLNL) is a research and development
institution that supports the Department of Energy's core national security mission. The
University of California operates LLNL under a contract with the National Nuclear
Security Administration. h May 2007, the Department selected Lawrence Livermore
National Security, LLC, to be the new management and operating contractor for the site,
and to take over mission activities starting October 1, 2007. In support of its mission,
LLNL maintains a highly trained Protective Force Division (PFD) to secure its facilities
and operations.

The Office of Inspector General received multiple allegations regarding operations and
payroll compensation within the LLNL Protective Force Division. T l ~ eob.jective of our
inspection was to review applicable policies and procedures, determine current practices,
and review the adequacy of related internal controls to ensure safeguarding of
government resources. Our recomnlendations are intended to apply to the University of
California and its successor contractors.

RESULTS OF INSPECTIOIV

Our review did not substantiate the bulk of the allegations. However, we found that as
alleged, PFD supervisors were not properly managing payroll input for physical fitness
training. Specifically, PFD supervisors were not properly verifying the accuracy of
physical fitness training overtime charges prior to approving timecards as required.
Consequently, many protective force officers received overtime pay for undocumented
physical fitness training. This may have resulted in payment of an estimated $104,000 in
questionable costs over a three-month period.

[lad the University of California followed established procedures for verifying time card
entries, protective force overtime would have been properly documented or would not
have been charged.
We recommended several corrective actions. These included directing the University of
California and its successor contractors to ensurc that physical fitncss overtime
documentation and verification policy is clearly understood by PFD en~ployees,and that
responsible supervisors properly verify overtime payments for physical fitness training
prior to payment being made. Additionally, we recommended that management review
the allowability of payment for as much as $104,000 in undocumented overtime for the
period cited in this review, as well as remaining physical fitness overtime paid from
March 2006 to the present.

MANAGEMENT REACTION

In responding to our draft report, management concurred with the recommendations and
identified corrective actions that will be taken to address them by September 2007.
Management's comments are included in their entirety at Appendix B.

We found management's comments to be responsive to our recon~mendations.

Attachment

cc: Manager, Livermore Site Office
    Director, Policy and Internal Controls Management (NA-66)
    Director, Office of Internal Review (CF- 1.2)
PROTECTIVE FORCE OVERTIME PAY AT LAWRENCE
LIVERMORE NATIONAL LABORATORY

TABLE OF
CONTENTS


              OVERVIEW

              Introduction and Objective     1

              Observations and Conclusions   1


              DETAILS OF FINDING

              Overtime Pay for
              Physical Fitness Training      3


              RECOMMENDATIONS                4


              MANAGEMENT COMMENTS            5


              INSPECTOR COMMENTS             5


              APPENDICES

              A. Scope and Methodology       6

              B. Management Comments         7
Overview

INTRODUCTION       The Lawrence Livermore National Laboratory (LLNL) is a
AND OBJECTIVE      research and development institution that supports the Department
                   of Energy’s core national security mission. The University of
                   California operates LLNL under a contract with the National
                   Nuclear Security Administration (NNSA). In support of its
                   mission, LLNL maintains a highly trained Protective Force
                   Division (PFD) to secure its facilities and operations.

                   The Office of Inspector General received multiple allegations
                   regarding the LLNL Protective Force. Specifically, it was alleged
                   that: (1) PFD Sergeants were not making the required field
                   evaluation before “clearing” an alarm; (2) PFD officers were
                   sleeping during shifts and dispatchers, therefore, had difficulty
                   contacting officers during required radio checks; (3) PFD Captains
                   and Training Sergeants received evening and night shift
                   differential pay even though they were assigned to day shifts; (4)
                   PFD Sergeants received extra compensation for working through
                   lunch when they actually took lunch; and (5) PFD Shift Sergeants
                   managed payroll input for subordinate officers and gave officers
                   credit for physical training workouts whether the officers actually
                   exercised or not.

                   At present, the University of California manages and operates
                   LLNL under contract with DOE. In May 2007, DOE announced
                   that Lawrence Livermore National Security, LLC, was selected to
                   be the new management and operating contractor for the site, and
                   to take over mission activities starting October 1, 2007. The
                   current contract with the University of California requires that the
                   contractor ensure resources are safeguarded against waste, loss,
                   mismanagement, unauthorized use or misappropriation. Due to the
                   lack of specific names or dates in the complaint, we reviewed the
                   available facts and circumstances surrounding the allegations. The
                   objective of our inspection was to review applicable policies and
                   procedures, determine current practices, and review the adequacy
                   of related internal controls to ensure safeguarding of government
                   resources.

OBSERVATIONS AND   Our review did not substantiate the bulk of the allegations.
CONCLUSIONS        However, we found that as alleged, PFD supervisors were not
                   properly managing payroll input for physical fitness training.
                   Specifically, PFD supervisors were not properly verifying the
                   accuracy of physical fitness training overtime charges prior to
                   approving timecards as required. Consequently, many protective
                   force officers received overtime pay for undocumented physical
                   fitness training. This may have resulted in payment of an



Page 1                                              Observations and Conclusions
         estimated $104,000 in questionable costs over a three-month
         period.

         Had the University of California followed established procedures
         for verifying time card entries, protective force overtime would
         have been properly documented or would not have been charged.




Page 2                                   Observations and Conclusions
Details of Findings

OVERTIME PAY FOR      We found that PFD supervisors were not properly verifying the
PHYSICAL FITNESS      accuracy of physical fitness training overtime charges prior to
TRAINING              approving timecards as required. Consequently, many protective
                      force officers received overtime pay for undocumented fitness
                      training. The “University of California Lawrence Livermore
                      National Laboratory and Security Police Officers Association
                      2004-2008 Agreement” states that each officer is allowed to earn
                      up to three hours of overtime for physical fitness training per week.
                      However, we determined that supervisors were not taking steps to
                      ensure the accuracy of timecard entries for overtime charged for
                      physical fitness training. Associated supporting training
                      documentation was not being maintained as required by LLNL
                      policies.

Timecard Input        The LLNL Protective Force Division “Payroll Order” states that
and Approval          officers’ and sergeants’ supervisors must review timecard entries
                      for each person to ensure accuracy, resolve discrepancies, and
                      make any necessary corrections before approving timecards.
                      Under the policy, each employee and supervisor is held
                      accountable for the legitimacy of the entries.

                      In accordance with the Payroll Order, PFD personnel including
                      officers are responsible for inputting their own weekly timecard
                      information into LLNL’s Laboratory Institutional Time Entry
                      automated system for payroll transactions. The PFD supervisors,
                      as timecard approvers, must verify the accuracy of the timecard
                      and electronically approve each timecard before it is sent through
                      the payroll system. Our analysis showed that frequently,
                      supervisors were not verifying the accuracy of training overtime
                      charges prior to approving the timecards. We interviewed LLNL
                      PFD officials, who told us that supervisors did not verify the
                      accuracy of physical fitness training overtime charges because they
                      lacked the time to do so. These officials stated that instead,
                      timecard approvers relied on the officers’ integrity when approving
                      the timecards.

Documentation for     The PFD “Compensated Workouts Work Rule,” dated March
Physical Fitness      2006, states that for the officers to receive physical fitness
Training Workouts     training overtime pay, a “Workout Training Log,” which will
                      enable the Fitness Staff to monitor progress, shall be used to
                      document all paid workouts, and that “. . . failure to complete
                      the log prohibits the Fitness Staff from monitoring progress;
                      therefore, workouts not documented on the log will not be
                      compensated.” Each officer is required to maintain his/her
                      own training log and make entries including the date, exercise
                      completed, number of repetitions, and time spent exercising.


Page 3                                                               Details of Findings
                  We conducted a review of the Workout Training Logs of 25
                  percent of the LLNL PFD officers and compared the logs to
                  the officers’ weekly timecards. Our analysis revealed that
                  officers charged 1,577 physical fitness overtime hours from
                  August through October 2006. However, 75 percent of the
                  officers in the sample made only partial entries in the log to
                  document their participation in the exercise program. As a
                  result, it was impossible to verify 602 overtime hours.

                  Additionally, six officers in the sample charged and were paid for
                  more than the allowable three hours of physical fitness training per
                  week. Seven additional officers had no physical fitness records to
                  justify their overtime charges. For example, during the three
                  month time period of our sample, one officer charged 33 hours of
                  overtime, and another officer charged 31 hours of overtime for
                  which there were no records for verification. We questioned the
                  officers about the lack of documentation. One officer cited old
                  habits of not having to document the physical fitness training
                  hours. The other officer cited that constant policy change, the lack
                  of communication from management, and misinformation from
                  other PFD personnel contributed to the lack of documentation and
                  failure to follow correct procedures. We note that the
                  Compensated Workouts Work Rule had been in effect and should
                  have been available to PFD officers for eight months prior to our
                  visit.

                  We requested that the LLNL Payroll Office provide specific
                  salary information regarding the officers who failed to
                  properly document overtime for physical fitness training.
                  Based upon the information provided by the Payroll Office,
                  we determined that the amount of money paid under these
                  circumstances from August through October 2006 was
                  approximately $26,000 for the sample we evaluated. If the
                  findings regarding our sample are consistent across the entire
                  PFD population, the estimated cost for the time period
                  reviewed could be as much as $104,000. The total cost could
                  be greater since the program has been in place since March
                  2006.

RECOMMENDATIONS   We recommend the Manager, Livermore Site Office take the
                  following actions with respect to the University of California and
                  its successor contractors:

                  1. Direct the University of California, and successor contractors,
                     to ensure that: (1) physical fitness overtime documentation and



Page 4                                                           Recommendations
                verification policy is clearly understood by PFD employees;
                and (2) responsible supervisors properly verify overtime
                payments for physical fitness training prior to payment being
                made.

             2. Review the allowability of payment for as much as $104,000 in
                undocumented overtime for the period cited in this review, as
                well as remaining physical fitness overtime paid from March
                2006 to the present.

MANAGEMENT   In comments to a draft version of this report, management
COMMENTS     concurred with the recommendations and identified corrective
             actions that will be taken to address them by September 2007.
             Management’s comments are included in their entirety at
             Appendix B.

INSPECTOR    We found management’s comments to be responsive to our
COMMENTS     recommendations.




Page 5                              Management and Inspector Comments
Appendix A

SCOPE AND     The fieldwork for this inspection was conducted between
METHODOLOGY   November 2006 and February 2007. As part of this inspection, we
              interviewed LLNL officials, as well as LLNL employees involved
              in the PFD physical fitness training program. We also reviewed
              LLNL policies, procedures, and records relating to physical fitness
              training. Documents used in this review included:

              •   University of California Lawrence Livermore National
                  Laboratory and Security Police Officers Association 2004-
                  2008 Agreement;

              •   Security Department Protective Force Division “Compensated
                  Workouts Work Rule”;

              •   Security Department Protective Force Division “Payroll
                  Order”; and

              •   Security Department Protective Force Division “Patrol and
                  Alarm Response Order.”

              This inspection was conducted in accordance with the “Quality
              Standards for Inspections” issued by the President’s Council on
              Integrity and Efficiency.




Page 6                                                Scope and Methodology
Appendix B




Page 7       Management Comments
Appendix B




Page 8       Management Comments
                                                                    IG Report No. INS-O-07-03

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message clearer to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith at (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
